IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM,2020
RONNIE EUGENE FUSTON,
Petitioner,
vs.

)
)

)
)
)

)

THE STATE OF OKLAHOMA,

)

Respondent.

)
)

MOTION TO PROCEED IN FORMA PAUPERIS

Petitioner Ronnie E. Fuston respectfully requests this Court permit him to
proceed in forma pauperis on his Petition for Writ of Certiorari to the Oklahoma
Court of Criminal Appeals. Petitioner is without ample fundsto file this Petition.
(See attached Affidavit.)
Petitioner was previously found indigent in the District Court of Oklahoma
County and was permitted to file without costs in the Oklahoma Court of Criminal
Appeals.
Respectfully submitted,
ROBERTA. RAVITZ
Public Defender of Oklahoma County

DREA DIGILIO MILLER (OBA No. 17019)
Specially Assigned Counsel
800 N. Harvey Avenue, Suite 317
Oklahoma City, Oklahoma 73102
(405) 208-6161
COUNSEL FOR PETITIONER, MR. FUSTON

MAT
INoy rst istricr court oF oxaroma county
FESR ZEIER
STATE OF OKLAHOMA

FILED IN DISTRICT COURT

OKLAHOMA COURTY

THE STATE OF OKLAHOMA,
Plaintiff,
VS:

RONNIE EUGENE FUSTON,
Defendant.

Nee Oe ee es as ee

JUL 24 2017

‘ No, CF-201
“P99133-0438
.942
Case

REN
sefee

TYPEOF APPEAL 46

(X) Direct Appeal (felony)
( ) Direct Appeal (misdemeanor)
( } Post Conviction (Capital
only; use sections I &
IVofthis form for the
Notice of Intent to Seek Review)

(X) CAPITAL

NOTICE OF INTENT TO APPEAL;
ORDER DETERMINING INDIGENCE, APPELLATE COUNSEL
PREPARATION OF APPEAL RECORD, AND GRANTING TRIAL COUNS
EL'S
MOTION TO WITHDRAW; COURT REPORTER'S
ACKNOWLED EMENTS; AND
NOTIFICATION OF APPROPRIATE APPELLATE COUNSEL, IF APPOI
NTED
IL_ NOTICE OF INTENT TO APPEAL

The Defendant was sentenced on the 24" day ofJuly 2017, for:
Crime(s

Ct. 1:

murderin thefirst degree

Ct. 2:

felon in possession ofa fircarm

Statute(s

Sentence

Okla. Stat. tt,
21, § 701.7

Death

Okla. Stat. uit

10 years

21, § 1283

The Defendantintends to appeal the above conviction to the Oklahoma Court
of Criminal Appeals

pursuant to Okla. Stat. nr. 22, § 1051 (2011) and Okla. Stat. tit. 21, § 701.13
(2011). This Notice of

Intent to Appeal and the Designation of Record, attached as Exhibit "A", pursuant
to Rule 2.5(A) of
the Rules of the Court of Criminal Appeals, Ch.18, App., of Title 22, was filed with the
clerk of the trial
court within ten (10) days of the date of the pronouncementof the Judgment and
Sentencein this case
and constitutes a valid initiation of a direct appeal in accordance with the Court
of Criminal Appeals
Rule 2.148). The Defendant further requests that the original record and transcrip
ts be prepared in

accordance with the completed Designation of Recotd, attached as Exhibit
"A"

CATHERINE C. HAMMARSTEN
( ) Retained
(x) Appointed
£ ) Individual
{ ) OklahomaIndigent Defense System
CX) Oklahoma CountyPublic Defender
() Tulsa County Public Defender

A true and correctcertified copy of the Notice of Intent to Appeal and the Designation of Record with
acknowledged receipt by the court reporter were mailed this___ dayof July, 2017, to the Clerk of the
Oklahoma Court of Caminal Appeals.

UX

CATHERINE C, HAMMARSTEN
Assistant Public Defender
OBA No. 15251
320 Robert 8. Kerr, Room 611

Oklahoma City, OK 73102
(405) 713-1550

II.

APPLICATION FOR DETERMINATION OF INDIGENCE

In accordance with Rule 1.14 of the Rules of the Court of Criminal Appeals, 22 O.8., Ch.18, App., the

Defendant submits that he is indigent and cannot pay the costs of an appeal. Counselstates:
Gx)

Indigence has been previously determined by this Court or its designee, and a paupet's
affidavit in accordance with Rule 1.14(A) will be provided if this Court clects to review
the Defendant's status.

(3

Indigence has not been previously determined by this Court or its designee, and a
paupet's affidavit in accordance with Rule 1.14(A)is attached as Exhibit "C".

It is requested that appropriate counsel be appointed and transcripts be prepared at the expense of the
State.
—~

f

CATHERINEC. HAMMARSTEN

Ill. DETERMINATION OF INDIGENCE
Pursuant to Rule 1.14 of che Rules of the Court of Cnminal Appeals, Ch.18, App., of Title 22, this

Caurtfinds the Defendant (S)IS ()IS NOTcurrently indigent.
THE COURT ORDERS:
AA. Preparation of the Appeal Record:

1. A record of this case (XJIS (IS NOT to be prepared at public expense.
2.

The court reporter(s) listed below (X)SHALL ( ) SHALL NOTbe reimbursed ar public
expense out of the Court fund of Oklahoma Countyfor preparation of this record.

Mailing Address:

Pamela Goold
321 W. Park Avenue

Transcript Type:

Preliminary Hearing dates before Judge D. Fred Doak

Namic:

Okla. City, OK 73102

‘Transcript Date:

February 5 & 7, 2014 and April 8, 2014 intheir entirety

Name:

Kim Lewin

Mailing Address:

321 W. Park Avenue
Okla. City, OK 73102

Transcript Type:
‘Transcript Dates:

Motion hearings held before Judge Timothy R.Henderson
October 30, 2014 and March 17, 2015

Name:

Kusun Taylor

Mailing Address:

321 W. Park Avenue
Okla. City, OK 73102

Transcnipt Type:

Pre-Trial Motion hearings and/or Status Conference held before Judge
Timothy R. Henderson
April 3, 2014!. May 28, 2014, September 2, 2014; December 16, 2014; and

Transcnpt Dates:

Name:

Mailing Address:
‘Transcript Type:

‘Transcript Date:

January 8, 2016
Beth Weldon

321 W. Park Avenue
Okla. City, OK 73102
Motion hearing/Status Conference held before
Apri 29, 2016

Ju

y

hi

‘LX “d&" symbol indicates that this date should only require a 3copy of a previously transcatbed and filed transeript as
the court reporter has previously filed an orginal and 2 copies.

3

Name:
Mailing Address:

‘Transcript Type:

Transcript Date:
Name:

Mailing Address:

Transcnpt Type:
Transcript Date:

‘Transcript Type:
‘Transcript Date:

Hannah Tipton
321 W. Park Avenue
Okla. City, OK 73102

Motion hearing before Judge Ray C. Elliott

September 8, 2016
Cynthia Jones

321 W. Park Avenue

Okla.City, OK 73102
Motionhearings held before Judge Ray C. Elliott

September 22, 2016; November 8, 2016; November 18, 2016; March 14, 2017;
April 18, 2017; April 19, 2017; May1, 2017 and May15, 2017

Jury Trial proceedings before Judge Ray C. Elliott

May22, 2017; May 23, 2017, May 24, 2017; May 25, 2017; May 30, 2017; May
31, 2017; June 1, 2017; June 2, 2017, June 5, 2017; June 6, 2017; June 7, 2017

and June 8, 2017
‘Transcnpt Type:
Transcript Date:
3.

Sentencing
July 24, 2017

The return to the trial court clerk all transcripts preparedat state expense during the course

of the trial proceedings. These transcripts shall be returned within ten (10) day from the
date of sentencing. See Rule 3.2(E).

B. IF INDIGENT:

1,

Catherine C. Hammarsten,trial counsel for the Defendant, timely completed this Notice of
Intent to Appeal and has omelyfiled a Designation of Record.

2. The court reporters have beenserved with a copyof the Designation of Record.
3. Appropnate transctipts are ordered at public expense.

4.

Robert A. Ravitz, ( )CHIEF, CAPITAL DIRECT APPEALS DIVISION OF
THE
OKLAHOMA INDIGENT DEFENSE SYSTEM Gf the case was tried as capital,

regardless of sentence imposed) ()CHIEF OF THE GENERAL APPEAL
S DIVISION

OF THE OKLAHOMA INDIGENT DEFENSE SYSTEM (if the case was tried as
noncapital)¢ )PUBLIC DEFENDER OF TULSA COUNTY (X)PLBLIC DEFENDER
OF
OKLAHOMA COUNTY / )A PRIVATE ATTORNEY. ADDRESS: 611 County
Office Bldg, Oklahoma City, OK 73102, TELEPHONE: (405) 713-1550, is
appointed to represented the Defendant on appeal,
(The public defender of Tulsa County and Oklahoma County may only be appointed if that
office represented the defendant attrial unless a conflict of interest exists as determined.)

9. Any Supplemental Designation of Record by the Oklahoma Indigent Defense System
pursuant to Section 1362 of Title 22 must be fled and served upon the appropriate court
reporter(s) widun chirry GO) days from the date of appointment.

6.

Catherine C. Hammarsten, trial counsel for the Defendant, is permitted to withdraw as
counsel of record.

7. Cases in which death penalty imposed: Kristi Christopher, Chief of the Capital PostConviction Division of the Oklahoma Indigent Defense System, is appointed to

represent the defendant on the filing of an application for post-convictionrelief in
accordance with the provisions of §§ 1089 and 1356 of Title 22.

. TF NCYP INDIGENT:
1.

N/A.

, tral counsel for the Defendant, imely completed this Notice of Intent

ta Appeal and has timelyfiled a Designation of Record.

2.
3.

4,

The court reporter(s) has been served with a copy of the Designation of Record.
NiA

. has entered his/her appearance and will represent the Defendant on

N/A.

, tal counsel for the Defendant, has fled a Motion to Withdrawas

appeal as retained counsel.

Counsel. ‘he Motion ts granted and trial counsel is permitted ro withdrawas counsel of
record.

IT ISSO ORDERED.

4

‘Chis Order signed this ay day ofJuly 2017.

OcT

$9 2020

RICK WABREN S22ity
Cum

NOTE: A NOTICE OF INTENT TO APPEAL AND DESIGNATION OF RECORD MUST
BE
FILED WILHIN TEN (10) DAYS FROM THE DATE ‘THE SENTENCEIS PRONOUNCED IN
OPEN COURT WITH THE CLERK OF THE TRIAL COURT. THIS NOTICE AND
DESIGNATION IS JURISDICTIONAL AND FAILURE TO TIMELY FILE CONSTITUTES
WAIVER OF THE RIGHT TO APPEAL. A CERTIFIED COPY OF THIS NOTICE AND
DESIGNATION SHALL ALSO BE FILED BY TRIAL COUNSEL WITH THE CLERK OF THE
5

COURT OF CRIMINAL APPEALS WITHIN ‘TEN (10) DAYS FROM THE DATE THE
NOUICE IS FILED IN THE TRIAL COURT, NO TRIAL ATTORNEY MAY BE. GRANTED
PERMISSION TO WITHDRAW, IF THE DEFENDANT DESIRES TO APPEAL, UNLESS
THESE DOCUMENTS ARE FILED, IF THE DEFENDANT DOES NOT WISH TO APPEAL
THIS CONVICTION, TRIAL COUNSEL MUSY FILE AN AFFIDAVIT SIGNED BY TRIAL
COUNSEL AND ACKNOWLEDGED BY THE TRIAL JUDGE WITH THE CLERK OF THE
DISTRICY COURT, BEFORE TRIAL COUNSEL IS ALLOWED TO WITHDRAW,
ASSERTING THAT ‘THE DEFENDANT HAS BEEN FULLY ADVISED OF HIS/HER
APPEAL RIGHTS AND DOES NOT WISI TO PURSUE AN APPEAI, OF THT
CONVICTION.See Rule 1.14/D).
IV, COURT REPORTER'S ACKNOWLEDGMENTS
A,

B.
C,

D.
E.
P

Parmela Goold

The Designation of Record, attached as "Exhibit A", was received on

payment of the transcript cost. These financial arrangements were completed on

, 2016. If payment has not been made/arranged, explain why:
Numberof trial and/or hearing days:

Estumated number of transcript pages:
Usumated completion date:
;
1 acknowledge receipt of this document and understand I must prepare the record
within the ume limits prescribed by the Oklahoma Courtof Criminal Appeals.

DATE: 7 al { q
oe
A.

Zoo

h.

B:

id rika ne
PAMELA GOOLD, Official Court Reporter
Ki Lewin

.

The Designation of Record, attached as "Exhibit A", was received on oe 2016

I! NOT INDIGENT, satisfactory arrangements { have ( Jhave not been made for
payment of the transcript cost. These financial arrangements were completed on
, 2016, If payment has not been made/attanged,explain why:
Numberof trial and/or heating days:
.

Esamated numberof transcript pages: 5Q,

.

Esamated completiondate: ff- {-]7
I acknowledge receipt of this dacument and understand I must prepare the record
within the time limits prescribed by the Oklahoma Court of Criminal Appeals.

pare: (2 Q4-/7
A.

, 20167

IF NOT INDIGENT,satisfactory arrangements ( )have ( Jhave not been made for

a

Ke ee

KIM LEWIN,Official Court Reporter
Kristin Taylor

wt

;

JO-4

The Designation of Record, attached as "Exhibit A", was received on (lod dL

IF NOT INDIGENT,satisfactory arrangements ( }have { Jhave not been made for
payment of the transcript cost. These financial arrangements were completed on
, 2016, Tf payment has not been made/artanged, explain why:

6

7 BOO

Numberof trial and/or hearing days:

Estimated numberof transcript,Pes
lO

Estimated completion date:

__U/C+ DIL.

I acknowledge receipt of this document and understand I must prepare the tecord
within the time limits prescribed bythe Oklahoma Court of Criminal Appeals.

aH 9

BeeltokELS.

[ MRISTIN'TAYHOR, (Official Cote Hepotter
—

Beth Weldon

The Designauon of Record, attached as "Exhibit A", was received on

, 2018 7

[KF NOT INDIGENT, satisfactory arrangements ( )have / Jhave not been made for
payment of the wanseript cost. These financial arrangements wete completed on
, 2016. If paymenthas not been made/arranged, explain why:

mmOO

Numbct of trial and/or heating days:

Esamated numberof transcript pages:,So

Estimated completion dare:

oct oy 4

T acknowledge receipt of this document and undesrind T must prepare the record
within the timelimits prescribed by the Oklahoma Court of Criminal Appeals.
oN

DATE:

ae

| agi
‘|

“3

wt

“

HeAon)

wie

?

\

i

*)

BETH WELDON,Official Court Reporter

Hannah Tipton
The Designation of Record, attached as "Exhibit A", was received on

, 2016.7

IF NOT INDIGENT, satisfactory arrangements (Jhave ( )have not been made for

payment of the transcript cost. hese financial arrangements were completed on
, 2016. If payment has not been made/arranged, explain why:

Numberof trial and/or hearing days:

_1

Estimated number ofrsansedipages Bi
Estimated compledon date:
Ag
I acknowledge teceipt of this document and understand I] must prepare the record
within the timelimits prescribed by the Oklahoma Court of Criminal Appeals.

DATE: 1-24-|4

a mmad

ton

HANNAH TIPT ON,OfficialColt Reporter

A,
B.

Cynthia Jones
The Designation of Record, attached as "Exhibit A", was received on ,201€
IF NOT INDIGENT,satisfactory arrangements ( jhave ( )have not
beenmade for

C.
dD.
E.

Number oftrial and/or hearing days:
Estimated numberof transcuptpages:
Hstimated completion date:

payment of the transcmpt cost. hese financial arrangements were completed on
» 2016, If payment has not been made/arranged, explain why:

F.

I acknowledge receipt of this decument and understand I must prepare the record
within the ame limits presgfibed by the Oklahoma Court of Criminal Appeals.

an

DATE:

LinkeSn

CYNYHIA JONES, Official Court Reporter

¥. NOTIFICATION OF COUNSEL, [F APPOINTED

No Designation of Record shall be accepted forfiling bythe trial court clerk unlessit

NOTE:

contains one of the following:

A signed acknowledgment from the court reporter(s) who reported proceedings in a
case indicating receipt of the request for transcript(s), the date received, and completed
financial arrangements, or an order of the trial court directing che case be prepared at
public expense; or,

B.

A signed statement by the attorney preparing the designation of record stating that
transcripts have not been ordered and a brief explanation why. (Example, |,
, attorney for the Appellant, hereby state chat I have not ordered a transcript because:

(1.) A transcript is not necessary for this appeal; (2.) No stenographic reporting was
made.)

A true and correct certified copy of this Notice and Order and the Designation of Record were

mailed this ___ day of
, 2016, to ( )the Capital Direct Appeals Division, Oklahoma Indigent
Defense System, P.O. Box 926, Norman, Oklahoma 73070: ( )the General Appeals Division,

Oklahoma Indigent Defense System, P.O. Box 926, Norman, Oklahoma 73070-0926; (} Public

Defender of Oklahoma County, 611 County Office Building, 320 Robert S. Kerr Avenuc, Oklahoma

City, Oklahoma 73102; ( )Public Defender of Tulsa County, 189 Courthouse, 500 South Denver

Avenue, Tulsa, Oklahoma 74103; ()

, Ptivately retained counsel.

Deputy Court Clerk, Oklahoma County

EXHIBIT “A"

THE STATE OF OKLAHOMA,

Plainnff,
VS.

RONNIE EUGENE FUSTON,
Defendant.

Me NYY Ne eee te

IN THE DISTRICT COURT OF OKLAHOMA COUNTY
STATE OF OKLAHOMA

Case No. CF-201 3-0438

DESIGNATIONRECORD
APPEAL
ON

(Capital Direct Appeal and Mandatory Sentence Review)
Defendant Ronnie E. Fuston, requests the Court Clerk to prepare the original record for

purposes of lodging an appeal in the Court of Criminal Appeals. The appeal timeis to start from the

24°dayof July, 2017; the date Judgment and Sentence was imposed bythe District Court, Said otiginal
record shall contain the following material from the District Court file:

1)

District Court Informaton (and all amendments,if any),

2)

All motions, applications, notices, and requests filed on behalf of the State or

3)

4)

Defendant and anyordersorrulings of the Court thereon;

All first and second stage juryinstructions proposed and/or drafted but not given Of

any), and verdict forms given by the Court and all requested jury instructions and
verdict forms by the State or Defendant — this is a jury trial, there should be jury
instructions and sipned verdict forms;

A copy of the Court's docket sheet in this case and any Court minutes referenced

therein;

The Death Warrant, Judgment and Sentence, and Summaryof Kacts on sentencing;
Nouce of Intent to Appeal with Designation of Record attached as Exhibit "A"; Order
Determining Indigence, Appellate Counsel, Preparation of Appeal Record, and
Granung Trial Counsel's Motion to Withdraw; Court Reporter's Acknowledgment; and

~J
se

Nouficaton of Appropriate Appellate Counsel, Lf Appointed.

All Amended or Supplemental Designations of Record,if any;

8

Capital Trial Judge's Report;

9)

All documentaryexhibits of State, Defendant, and/ot Court if any;

10)

AH correspondence filed in the district court between all partics and any and all
correspondenceof the court to any party, if any; and

11)

Transeript of the Motion Hearing held on August16, 2016, before Judge RayC. Elliott
(previously transcribed and 3 copies tiled in the district court on October 31,

2016, by Court Reporter Deborah Torbert).

In addition to the above-numbered documents, the following portions of the record will be
transcnbed and assembled by the Court Reporters:
Voir dere examination, all pre-trial motion hearings, all hearings on competency,all incamera hearings, trial docketcall, all in-chamber conferences, any andall ex-parfe records
made outside the hearing ofthejury, all opening statements and closing arguments of
counsel; as well as all trial proceedings and evidence introduced at trial. ‘he testimony

of all witnesses both in the presence of the jury and out of the jury's presence;

objections and exceptions, and arguments in support of the objections, exceptions and

motions, including Motions for New ‘Trial, as well as the sentencing transcripts, all of

the above being stenographically reported.
All documentary, physical, and
photographic exhibits, including audio and video tape recordings, and any andall
medical records or other records inspected in camera by the trial judge under seal or
otherwise.

CATHERINE C. HAMMARSTEN

ACKNOWLEDGEMENTS
We, Pamela Goold, Kim Lewin, Kristin Taylor, Beth Weldon, Hannah Tipton and Cynthia

Jones, Court Reporters for the above-styled and numbered case, do hereby acknowledgethis request
for transcripts this___ dayof July,

O17.

Puma Mn (

oe

PAMELA GOOLD, Court Reporter

yo fn.

CF

EpsGets

oy (2h

KIMLEWIN,
L
Court Reporter

di a

7

i

PP LL! ten”7

KRISTIN TAYHOR,Gout
aay”

TH WELDON Court
See

“A
Alaeaadat

re ne

HANNAH TIPTON,Coit Reporter

HIA JONES, Court Reporter

CERTIFICATE OF SERVICE

] hereby certify that a copy of the above and foregoing Designation was setved on the
Oklahoma County District Attomey, and on Court Reportets Pamela Goold, Kim Lewin, Keistin

Taylor, Beth Weldon, Hannah Tipton and Cynthia Jones, who took said proceedings before Judges D.
Fred Doak,‘timothy R. Henderson and Ray C. Elliott respectively, Dated this

4

day of July, 2017,

ee

[MD

CATHERINE C. HAMMARSTEN
DESIGNATION OF PARTIES

ATTORNEYS FOR DEFENDANT
Catherine C. Hammarsten, #15251

James ‘Tl. Rowan, #7789
Assistant Public Defenders

Nicole Burns, Pry hac vice
320 Robert S. Kerr Avenue, Suite 611
Oklahoma City, OK 73102

(405) 713-1550
FAN: (405) 713-7169

ATTORNEYS FOR THE STATE
Scott Rowland, First Assistant Distner Attorney

Suzanne Lavenue, Assistant District Attorney
320) Robert S, Kerr Avenue, Suite 305

Oklahoma City, OK 73102
(403) 713-1600
FAX: (405) 235-1567

